HHS/OIG-Audit--"Review of Kinship Foster Care Costs Which the New York State Department of Family Assistance Retroactively Claimed to the Emergency Assistance Program, (A-02-99-02001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Kinship Foster Care Costs Which the New York State Department of Family Assistance Retroactively Claimed
to the Emergency Assistance Program," (A-02-99-02001)
September 28, 2000
Complete
Text of Report is available in PDF format (1.21 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New York retroactively claimed kinship foster care costs as emergency assistance (EA)
costs, but claims, totaling $11.7 million (Federal share $5.8 million), did not meet Federal reimbursement requirements
under the EA program. A statistical sample of 100 claims showed that 99 contained costs which were unallowable because
the costs represented services provided outside the 12-month statutory limit for reimbursement under the EA program. One
case was missing the needed authorization form. Since the Administration for Children and Families deferred these claims
pending our review, we recommended that New York reduce their retroactive claim by $11.7 million.